<html>
<title> - ERITREA: A NEGLECTED REGIONAL THREAT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                  ERITREA: A NEGLECTED REGIONAL THREAT

=======================================================================

                                 HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 14, 2016

                               __________

                           Serial No. 114-237

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               ____________
                               
                               
                               
                        U.S. GOVERNMENT PUBLISHING OFFICE
21-541PDF                      WASHINGTON : 2016                        
_________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e285928da2819791968a878e92cc818d8fcc">[email&#160;protected]</a>  
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                
                                
                               --------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
DANIEL DONOVAN, New York
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Linda Thomas-Greenfield, Assistant Secretary, 
  Bureau of African Affairs, U.S. Department of State............     4
Father Habtu Ghebre-Ab, director of external relations, Canonical 
  Eritrean Orthodox Church in Diaspora...........................    21
Khaled Beshir, Ph.D., board member, Awate Foundation.............    26
Ms. Bronwyn Bruton, deputy director, Africa Center, Atlantic 
  Council........................................................    39

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Linda Thomas-Greenfield: Prepared statement........     7
Father Habtu Ghebre-Ab: Prepared statement.......................    23
Khaled Beshir, Ph.D.: Prepared statement.........................    29
Ms. Bronwyn Bruton: Prepared statement...........................    42

                                
                                APPENDIX

Hearing notice...................................................    70
Hearing minutes..................................................    71
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Questions submitted for the record and written 
  responses from:
  Father Habtu Ghebre-Ab.........................................    72
  Khaled Beshir, Ph.D............................................    73
  Ms. Bronwyn Bruton.............................................    74
The Honorable Christopher H. Smith: Statements from Eritrean 
  torture survivors..............................................    76

 
                  ERITREA: A NEGLECTED REGIONAL THREAT

                              ----------                              


                     WEDNESDAY, SEPTEMBER 14, 2016

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:26 p.m., in 
room 2172 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee hearing will come to order, and 
welcome to all of our distinguished witnesses and also my good 
friend and colleague, the gentlelady from California.
    In 1993, the citizens of Eritrea, then a province of 
Ethiopia, voted to become an independent nation. Ethiopia had 
annexed Eritrea in 1962 and its citizens no doubt believed that 
they were well on their way to controlling their own destiny.
    Unfortunately, their hopes would soon be dashed. Elections 
have been repeatedly postponed and opposition political parties 
are no longer able to organize.
    Those same initial hopes for democracy and good government 
in Eritrea were also held by the international community.
    In March 1997, in a report by the U.S. Agency for 
International Development program in the country, the American 
aid agency had high praise for its collaboration with the 
government.
    It said, in part, ``Over the past year the young state of 
Eritrea continued its exciting and pace-setting experiment in 
nation building and similarly USAID Eritrea established itself 
as Eritrea's leading development partner.''
    Within a few years, however, the Government of Eritrea 
ended its relationship with USAID. But this decision was 
originally taken as a sign that the country was ready to become 
an example to the rest of the developing world by managing its 
own humanitarian needs.
    Eritrea's Government instead merely became less open and 
when an east African drought occurred in 2011 we knew very 
little about how the people were faring.
    Today, we know that two-thirds of Eritreans live on 
subsistence agriculture, which has had poor yields due to 
recurring droughts and low productivity. What we also know is 
that Eritrea's citizens are living under a regime that does not 
honor human rights.
    In June of this year, the U.N. Human Rights Council 
released a report that accused the government with a variety of 
violations including extrajudicial executions, torture, 
indefinitely prolonged national service and forced labor, 
sexual harassment, rape, and sexual servitude by state 
officials.
    In its Trafficking in Persons Report released in June 2016, 
the State Department listed Eritrea as a Tier 3--that is the 
most egregious violator country--and stated that Eritrea is a 
source country for men, women, and children subjected to forced 
labor. The government did not investigate, prosecute, or 
convict trafficking offenders during the reporting year. The 
government demonstrated negligible efforts to identify and 
protect trafficking victims. The government maintained minimal 
efforts to prevent trafficking.
    In their most recent international religious freedom report 
the State Department again listed Eritrea as a Country of 
Particular Concern, or a CPC country.
    Moreover, the U.S. Commission on International Religious 
Freedom lists Eritrea as a Tier 1 Country of Particular Concern 
for its egregious religious freedom violations.
    The government interferes with the internal affairs of 
registered religious groups and represses the religious liberty 
of those faith groups that refuses to register, such as 
Evangelical and Pentecostal Christians, Jehovah's Witnesses, 
and Muslims who do not follow the government-appointed head of 
the Islamic community.
    Furthermore, the government has a record of arbitrarily 
arresting the believers and their leaders and reportedly 
tortures those in prolonged detention.
    As a result of the authoritarian government sanctions, 
Eritrea is considered one of the world's fastest-emptying 
nations with about \1/2\ million of the country's citizens 
having left their homes for often dangerous paths to freedom. 
An estimated 5,000 Eritreans leave their country each month.
    On July 9, 2015, a hearing by our subcommittee on Africa 
refugees, John Stauffer, president of the American Team for 
Displaced Eritreans, told us that the government officials 
operated freely in eastern Sudan, arresting and bringing back 
to Eritrea those they considered high value targets among 
refugees, such as government officials or church leaders.
    He also testified that refugees moving east may be 
kidnapped and extorted locally for a few thousand dollars or 
taken off to Egypt or Libya where they are abused. That abuse 
often included organ harvesting.
    In the past year, the world has witnessed a flood of 
Eritrean refugees risking their lives on too often unseaworthy 
boats bound for Europe. The prevalence of Eritreans among 
refugees has been overshadowed by refugees from the Middle 
East, especially Syria.
    The UK, one of the prime destinations for Eritrean 
refugees, apparently wanted to slow down the flow of Eritreans 
into the country. Earlier this year, the UK reduced the 
percentage of asylum claims from 95 percent to 28 percent.
    Directly addressing the root causes of the flight of people 
who are voting with their feet, often at great risk, seems a 
better policy than trying to determine the final destination of 
Eritreans who feel forced to leave their homes. That means an 
enhanced level of communication between Eritrea's Government 
and the international community.
    There have been quiet contacts between the government, the 
U.S. Government, and civil society. Today's hearing will 
examine how such contacts have developed. We hope the testimony 
in this hearing will answer some critical questions.
    Can the United States form a relationship with a government 
it has under sanction? Does the dire situation in which 
Eritrea's people live require an alteration of U.S. policy? 
What would a change in policy mean for the international effort 
to hold Eritrea's Government responsible for blatant human 
rights violations?
    Again, I want to thank our distinguished witnesses in 
advance for being here, including and especially the 
distinguished Assistant Secretary of State, Linda Thomas-
Greenfield, who we'll get to shortly.
    But I'd like to yield to my friend, the ranking member.
    Ms. Bass. Thank you, Mr. Chair, and let me thank you for 
calling this hearing today. I think it is particularly 
important.
    You mentioned the refugee crisis and we all know that the 
attention has been focused on refugees from Syria but we know 
the number of people that are also fleeing Eritrea and not 
getting the same level of attention.
    I can't tell you how many times I have talked to folks from 
Ethiopia and Eritrea locally who always stop and say why don't 
you do hearings--why don't you do hearings on what is happening 
in Eritrea. So I think that this hearing is particularly timely 
and I appreciate you calling this today.
    I will say that in preparing for the hearing a number of 
organizations--the Organization of Eritrean-Americans and 
several other organizations--are concerned and upset about why 
we are holding this hearing, taking the opposite point of view 
and saying that what we claim is happening in Eritrea is not 
and I don't know if on the second panel, not with the Assistant 
Secretary, but maybe someone could explain why there are so 
many people fleeing the country if what is being talked about 
around the world is in fact not the case.
    Eritrea is known as a country that it is claimed is the 
most censured country in the world, has been cited repeatedly 
for its abysmal human rights record, and as you mentioned in 
terms of the issue of trafficking I think that all is widely 
known. And so the question is if this is so off why does the 
world view Eritrea in this way.
    I'd like to ask the Assistant Secretary if she could share 
the administration's perspective regarding Eritrea's support of 
terrorism and the ongoing relevancy of the U.N. arms embargo 
and sanctions, whether the embargo and sanctions continue to be 
warranted and on what basis should there be consideration to 
eliminating the sanctions.
    I am also interested in your assessment of the role of the 
E.U. and its development programs with Eritrea. I know part of 
this, especially the increase in aid, is to stem the 
emmigration. But I would like to know what your thoughts are on 
that.
    And I am very interested in hearing witnesses representing 
the diaspora in the U.S. and what measures do these various 
diaspora groups support. Are they in support of a stronger 
relationship between Washington and Asmara or a continuation of 
the current approach.
    Thank you, Mr. Chairman. I yield back.
    Mr. Smith. Thank you very, very much.
    I would like to now introduce Ambassador Linda Thomas-
Greenfield, a career member of the Foreign Service. She was 
sworn in on August 6, 2013, and is the Assistant Secretary for 
African affairs.
    Prior to assuming her current position she led a team of 
about 400 employees who carried out personnel functions for the 
State Department's 70,000 strong workforce. Since beginning her 
Foreign Service career in 1982, she has risen through the ranks 
to the Minister Counselor level, serving in Jamaica, Nigeria, 
Gambia, Kenya, Pakistan, and the U.S. Mission to the U.N. and 
most recently as Ambassador to Liberia where she served from 
2008 to 2012. I'd like to now yield the floor to the 
distinguished Assistant Secretary.

 STATEMENT OF THE HONORABLE LINDA THOMAS-GREENFIELD, ASSISTANT 
 SECRETARY, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Ambassador Thomas-Greenfield. Thank you, Mr. Chairman, and 
thank you, Ranking Member Bass, for inviting me today and 
providing the opportunity for us to testify on the situation in 
Eritrea, and I am pleased to have my colleague, Eric Whitaker, 
seated next to me.
    Eric is the director of the Office of East African Affairs 
and he was just in Eritrea for about 2 months working as our 
Charge d'Affaires. So he may be able to give a little more 
depth to questions that you might have about the current 
situation in Eritrea.
    After 25 years of independence, Eritrea today stands as a 
country best known for its emmigration, and I say that word 
specifically so there is no misunderstanding. It's known for 
its emmigration and its poor record on human rights.
    Out of a population of approximately 3\1/2\ million people 
per U.N. estimates, an estimated 5,000 people a month flee the 
country. Many risk a perilous journey across Africa and across 
the Mediterranean at the hands of sometimes ruthless smugglers 
and in unsafe vessels.
    The country is hemorrhaging its youth. In a country that 
has never known an election, Eritreans, as you said, Mr. 
Chairman, are voting with their feet. They are fleeing 
indefinite conscription into military or national service, 
religious persecution and other human rights violations, and 
economic hardships. These same conditions frame the United 
States' relationship with Eritrea.
    In virtually every other country in Africa, including those 
with whom we have profound disagreements, we still seek to 
achieve partnerships across a range of shared global interests.
    We provide billions in foreign assistance to support those 
partnerships formed to fight HIV/AIDS and malaria, to support 
education, to combat violent extremism, and to strengthen 
governance.
    In Eritrea, that is not the case and that is because of the 
decisions of the Eritrean Government. In 2005, the Eritrean 
Government ordered USAID, other donors, international NGOs to 
leave the country.
    Subsequently, it ordered our Embassy defense attache's 
office to close and as a result today we have no bilateral 
assistance, no military to military relationships, and since 
2010 we have not had an Ambassador in Asmara.
    This is not the relationship we desire. Eritrea is one of 
the poorest countries on Earth. It is located in a volatile and 
strategic neighborhood on the Red Sea.
    But if Eritrea likes to portray itself as David and the 
United States as Goliath, I would argue that its wounds are 
largely self-inflicted and its slingshots hurl stones at its 
own people.
    Up to 5,000 of them make this clear every single month, 
risking their lives rather than remaining in the country they 
love.
    Eritrea's continuing torrent of immigration is no doubt 
driven in part by economic conditions. But it is the human 
rights records that push so many people to leave.
    Over the past decade, the Eritrean Government has 
arbitrarily detained journalists, political opposition members, 
and others trying to express their reform minded to others who 
have tried to push for reforms.
    In 2001, the government detained without charge a group of 
reform minded ministers and other prominent individuals who 
called for elections and implementation of the Constitution and 
many of these individuals remain in prison until today.
    Almost all citizens with few exceptions are forced into 
indefinite conscription, into national service. In many cases 
they are separated from their families for years.
    The government has imposed severe restrictions on the 
exercise and freedom of religion and belief and has subjected 
members of non-authorized religions to arbitrary detention and 
force recanting as a condition of release.
    The government has singled out groups such as the Jehovah's 
Witnesses for particularly harsh treatment because of their 
members' refusal to bear arms in the independence struggle or 
to participate in national service.
    Eritrean officials have long justified their poor human 
rights record and their large-scale militarization on an 
emergency, ``No war, no peace,'' situation over the unresolved 
demarcation of their border with Ethiopia.
    Eritrea has remained under a U.N.-imposed arms embargo and 
sanctions since 2009 for its actions that contributed to 
regional instability, including their support for al-Shabaab in 
Somalia.
    In the last two annual reports, the U.N. Somalia-Eritrea 
Monitoring Group has not found evidence of ongoing support to 
al-Shabaab but Asmara has refused to allow the group to visit, 
to conduct investigations in Eritrea per its mandate and this 
has limited the U.N.'s ability to determine Eritrea's 
compliance with the sanctions regime.
    Eritrea also continues to hold Djiboutian prisoners of war 
and is accused of fomenting unrest in neighboring countries.
    For all these reasons, we have made it clear that turning a 
new page in the United States-Eritrea relationship first 
requires significant improvements in human rights and we have 
repeatedly called on the government to abide by its 
international human rights obligations, implement its own 
Constitution, hold national elections, honor its commitment to 
limit the duration of national service to 18 months, develop an 
independent and transparent judiciary, and release persons who 
have been arbitrarily detained.
    We also continue to support the work of the Office of the 
U.N. High Commissioner for Human Rights, the U.N. Somalia-
Eritrea Monitoring Group, as well as other international 
efforts to make progress.
    And, surprisingly, there has been some progress albeit 
limited. In recent years, Eritrea has made some efforts to 
engage with the international community. The government 
reversed an earlier decision to close U.N. operations and has 
allowed some nongovernmental organizations to return.
    Earlier this year, they released four of a larger group of 
Djiboutian prisoners of war who were reunited with their 
families for the first time since 2008.
    Eritrea has recently been more open to working with the 
European Union on development programs and has allowed a 
handful of international journalists to return to the country.
    Eritrea's efforts to engage with the Office of High 
Commissioner for Human Rights are also welcome. The country 
accepted nearly half of the Universal Periodic Review 
recommendations and we continue to encourage the government to 
follow through on these.
    But as I've noted, our bilateral relationship with Eritrea 
is not an easy one. But we have not and we do not seek to cut 
off diplomatic engagement nor communications. This summer, one 
of our Deputy Assistant Secretaries traveled to Asmara to visit 
our Embassy there.
    Our Charge d'Affairs and her team meet regularly with 
officials and they host a variety of events at the American 
Center in Asmara for the Eritrean people.
    Many challenges remain, yet I have to say I am impressed by 
the resiliency of the Eritrean people. Eritrea and Eritreans 
pride themselves in self-reliance in the face of adversity.
    The largest obstacles to peace and prosperity, however, in 
their country have been erected by their own government.
    We are encouraged by the small steps toward progress I have 
outlined above and we would urge the government to take much 
larger strides forward by ending indefinite national service 
and releasing political prisoners.
    If given the opportunity to be heard and to fully and 
freely participate in their government, I truly believe that 
the people of Eritrea can do great things for their country.
    We look forward to the day when that is possible.
    Thank you very much for the opportunity to speak to you 
today and I look forward to your questions and if I can't 
answer I will turn to my colleague seated next to me.
    [The prepared statement of Ambassador Thomas-Greenfield 
follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Smith. Mr. Whitaker, I know you're on the spot a little 
bit but if you'd like to make some oral comments you're more 
than welcome.
    Mr. Whitaker. No, thank you, Mr. Chairman.
    Mr. Smith. Well, thank you. Then we'll move to some 
questions.
    First, beginning, if I could, with the Assistant Secretary. 
In your testimony you talk about Eritrea's efforts to engage 
the Office of High Commissioner for Human Rights are welcome, 
that the country has accepted nearly half of the Universal 
Periodic Review recommendations.
    Could you elaborate on what they have agreed to and what 
remains focused upon and unaccomplished?
    Ambassador Thomas-Greenfield. It's a pretty long list. 
Eric, do you have the details of what they have agreed to? And 
if not, I will get back to you with that.
    [The information referred to follows:]
Written Response Received from the Honorable Linda Thomas-Greenfield to 
Question Asked During the Hearing by the Honorable Christopher H. Smith
    A full list of the 200 Universal Periodic Review recommendations 
and the approximately half that were accepted can be found in the 2014 
Report of the Working Group on the Universal Periodic Review for 
Eritrea and its addendum. Eritrea largely agreed to and prioritizes 
addressing the recommendations on health, education, poverty 
eradication and development, and women's rights. Eritrea also accepted 
recommendations to accede to certain international human rights 
conventions, such as the Convention Against Torture. Despite this, we 
note with concern continued allegations of torture in Eritrea and urge 
them to address this. We also regret that other conventions agreed to 
have not yet been ratified, such as the Worst Forms of Child Labor 
Convention.

    Mr. Whitaker. We can follow up with that in writing to be 
more specific, sir, but several areas in development, most 
notably in the sectors of health and education, greater 
transparency, allowing a larger number of visitors to obtain 
visas and to come and talk with government officials.
    Mr. Smith. Okay. If you could get back with a very detailed 
description of that, that would be very helpful. I met with the 
High Commissioner for Human Rights in New York for lunch 
several weeks ago. We talked about South Sudan. We talked about 
Eritrea and other hot spots that he is working on and 
expressing concerns about, Ethiopia as well.
    Prince Zeid is doing his level best dealing with cauldrons 
all over the world, but if the council did agree that some 
progress was being made it would be helpful for this 
subcommittee to have that. So thank you.
    Let me ask you with regards to former U.S. Ambassador to 
Eritrea, Ronald McMullen, who said that there were more than 
four dozen employees of the U.S. Embassy in Eritrea who were 
detained during his tenure.
    Also, the daughter of the former Eritrean Minister of 
Information, Ciham Ali Abdu, who is also an American citizen is 
in prison. What can and are we doing to try to help her, to 
help others that either worked for us or are, in her case, an 
American and how many Americans are in Eritrean prisons?
    Ambassador Thomas-Greenfield. As far as I know, she is the 
only American who is currently in prison. We have had over the 
years our FSNs harassed--our Foreign Service National employees 
harassed, some arrested and some who are still currently being 
held by the government.
    We never miss an opportunity to raise this with the 
Government of Eritrea, encouraging them to release the American 
citizen but also to release our employees who have been 
arrested and to discontinue the harassment of our employees.
    Mr. Smith. When we are in-country does the Embassy make 
active representations on their behalf? Do we get to visit? Are 
we just unaware of their fate?
    Ambassador Thomas-Greenfield. I'll let our former Charge 
d'Affairs answer that question.
    Mr. Whitaker. Yes, sir, I did make representations last 
month with the Ministry of Foreign Affairs in person verbally 
and in writing to Ciham. We've asked for consular access 
repeatedly and not been granted it. We are concerned regarding 
the case. The answers we get are typically vague or note that 
such individual is an Eritrean citizen.
    Mr. Smith. Do we know where she is? Do we have any kind of 
information about her health, the treatment or lack of good 
treatment for her?
    Mr. Whitaker. No, sir. We have not received specific 
responses to our questions, sir.
    Mr. Smith. Okay. Does her family know? Do they feed into 
our information based on her?
    Mr. Whitaker. I am not certain when their last 
communication with her was, sir.
    Mr. Smith. Okay. Let me ask you with regards to Father 
Habtu Ghebre-Ab has said that the government confiscates 
Bibles, punishes people for open prayer and, of course, Eritrea 
is a Country of Particular Concern and I am wondering what kind 
of impact the Office of International Religious Freedom has 
had.
    Rabbi Saperstein, I know, is doing a wonderful job. Again, 
he has a full portfolio of egregious violators of religious 
freedom worldwide but this is a very serious issue and Father 
also makes a point in his testimony that national service is a 
form of human bondage and the TIP Report certainly goes into 
depth on that.
    And then Dr. Khaled Beshir, who will be testifying, points 
out that there may be as many 20,000 eleventh graders who have 
been forced to work for the ruling party, supplying workers for 
Nevsun. He describes it as slave labor.
    Do we have any information on that? It would appear like 
the parallel child soldiering issue, forced labor of very young 
children and teenagers and, again, it is in the narrative again 
this year of our TIP Report.
    But what can we do to help on this? Has UNICEF engaged, 
because they are leaders when it comes to the exploitation of 
children.
    Ambassador Thomas-Greenfield. Certainly, you noted and we 
noted as well that on the religious freedom scale Eritrea is a 
Country of Particular Concern and that the freedom to practice 
religion is strongly restricted by the government even for 
those three or four religions that they recognize.
    And this is an important issue for us and we've reflected 
that in our International Religious Freedom Report and it is an 
issue that we do as well continue to raise with the government.
    On the issue of national service, one of the things that 
the Eritrean Government agreed to was that they would limit, in 
the future, national service to 18 months.
    They have not honored that commitment and for now national 
service is almost for life, and what that means is that these 
young people are not able to take care of their families.
    They're not able to even plan for their futures. They are 
basically in a form of bondage for the rest of their lives. At 
eleventh grade they go into training and they are divided up 
and sent to various locations where they are required to 
perform their national service.
    Again, Eric was on the ground and may be able to provide a 
little more detail on that.
    Mr. Whitaker. Thank you, ma'am.
    Yes, Mr. Chairman. With respect to the national service 
after completion of eleventh grade, as she had said, students 
proceed to the Sawa training camp.
    They basically are divided into three groups thereafter. A 
small portion continue to higher education. A certain number go 
into military service on behalf of the security services of the 
country and the largest group goes into community service 
wherein they may be assigned to the various ministries or other 
parastatals or other branches of the government.
    But this is where the youth of the country goes and the 
service is indeterminate in length and this is one of the 
reasons that the youth are departing the country.
    Mr. Smith. Just a few final questions, then I'll yield to 
Ranking Member Bass. Can you describe why the government is 
showing some interest in reaching out to the international 
community, particularly some of these NGOs and providers of 
humanitarian aid in the E.U.?
    What's behind this motivation? What steps would need to be 
taken for the United States to upgrade its diplomatic standing? 
Is there any movement in that? Do you sense a positive or a 
movement in that regard?
    The Ethiopian and Eritrean forces clashed along the border 
of the Tsorona area. In his testimony, Dr. Beshir points out 
that resolution of the Eritrea-Ethiopia border dispute would 
take Eritrea out of its war footing, which is its justification 
for universal national service.
    What is your sense of that? What is being done to try to 
make that work? And finally, when an Eritrean man or woman goes 
to sea or goes to flight into Sudan, for example, or to Europe 
or wherever, if they are brought back what is the penalty that 
they suffer as a result of this attempted flight for refugee 
status?
    Ambassador Thomas-Greenfield. The first question was, why 
do we think the Eritrean Government continues or is opening up 
for opportunities to engage with the international community? 
And I think the answer to that is really simple and that is the 
sanctions have increased the cost of Eritrea's policies.
    So they need the development assistance that the European 
Union and NGOs might be able to provide for them, particularly 
in the health and education sector where they are allowing the 
few NGOs that they have allowed to come back in--the kind of 
work that they are allowing them to do.
    So I think their motive is a simple one. Their motive is 
simply need and as this effort continues we've not really seen 
any positive changes on the part of the government in terms of 
those areas that are important for us to change the nature of 
our engagement with the government.
    Those issues really require that the government take some 
serious measures to deal with the human rights situation in the 
country, to deal with the issues of press freedom, to deal with 
the issues of freedom of religion, to change their policy on 
national service, to limit it to 18 months so that these young 
people are able to engage in livelihoods that will allow them 
to have a future in the country.
    On the Ethiopia-Eritrea border dispute, we have encouraged 
both sides to work on a path to address this dispute.
    The report from the U.N. was I think very clear and we hope 
that both sides look for ways other than through conflict, 
through war, to address this.
    I don't know exactly what the penalty is if someone is 
returned. I suspect it is not a good thing for them and I would 
suspect that they would be either arrested or forced to 
continue their national service.
    Mr. Smith. If you could get back to us on that, yes, it 
would be helpful.
Written Response Received from the Honorable Linda Thomas-Greenfield to 
Question Asked During the Hearing by the Honorable Christopher H. Smith
    According to our Country Report on Human Rights Practices for 2015, 
in general Eritreans had the right to return to Eritrea, but citizens 
residing abroad had to show proof they paid the two percent tax on 
foreign earned income and sign a statement of regret. People known to 
have been declared ineligible for political asylum by other governments 
had their requests to reenter the country scrutinized more than others. 
Many who fled Eritrea remain in self-imposed exile due to fears that 
they would be conscripted into national service or detained for their 
beliefs if they returned. In some cases, security forces reportedly 
have arrested, detained, tortured, and beaten national service and 
military deserters and evaders and other people attempting to flee the 
country without travel documents.
    However, other sources reported there were little to no 
consequences for returning Eritreans, particularly those who had been 
granted residency or citizenship in other countries. Given the limited 
access within Eritrea, our Embassy has not been able to verify reported 
treatment of returnees.

    Ambassador Thomas-Greenfield. Eric, do you know?
    Mr. Whitaker. Mr. Chairman, I was going to follow on the 
development side.
    The first question, foremost, during my recent stay in 
Asmara as Charge d'Affairs at our Embassy I spent quite a bit 
of time talking to U.N. agency heads and their other 
representatives and my counterparts with the other Embassies.
    The door is slowly opening for development cooperation but 
I pick my words carefully--it is development cooperation for 
the long term in close coordination with ministries as opposed 
to short-term humanitarian assistance. The government is very 
adamant about this.
    The sectors which are allowed the most entry by outside 
partners--development partners--are in the health and education 
sectors. So the door is slowly opening.
    A limited number of NGOs--JICA from Japan, the U.N. 
agencies, and the E.U. development fund, as you mentioned 
earlier. These are all carefully negotiated agreements. This 
door is slowly opening.
    The number that flees each month doesn't seem to be slowing 
down. It's 5,000 a month. The UNHCR told us that very directly 
by the registration of those departing the country, arriving 
elsewhere.
    But I am not aware of circumstances of those who were 
forcibly returned. That's not come to my attention.
    Thank you, sir.
    Mr. Smith. Thank you very much.
    I yield to Ms. Bass.
    Ms. Bass. Thank you. Thank you very much for your testimony 
and I especially want to thank Mr. Whitaker, knowing we put you 
on the spot there but really appreciate your input.
    Eritrea remains such a mystery and I wanted to know if you 
could describe a little bit about what life is like there and 
also what is the ideology of the regime? What is driving it? 
You described the national service. You described it in three 
different categories--higher ed, the military and government 
service. What determines which way one goes?
    That's to begin.
    Mr. Whitaker. Thank you for that question, Madam Ranking 
Member. The problem is when one is in Asmara one sees only a 
limited spectrum of society of Eritrea. Our ability to travel, 
rather, in country is somewhat limited.
    Most Eritreans are engaged in small-scale agriculture--
herding, millet, sorghum, other crops. Their life is relatively 
simple. In urban areas it is more limited. Many of the people 
we are encountering are working with parastatals.
    Ms. Bass. What?
    Mr. Whitaker. Are working at the parastatals, state-owned 
enterprises----
    Ms. Bass. Oh.
    Mr. Whitaker [continuing]. And small-scale businesses or 
perhaps working with the NGOs or Embassies. Many folks, of 
course, are in community service including many of the 
employees at the government ministries.
    We see in the economy that the mining sector and the 
remittances sent by those abroad are very important to keeping 
the economy going.
    I think the fact that 5,000 people are leaving a month is a 
reflection in part not just on human rights but also diminished 
life chances and that is that many don't seem many economic 
opportunities so they decide that perhaps it is better to take 
their chances to depart the country and send back remittances 
to support their relatives.
    Ms. Bass. You described the inability to travel very much 
and so why is that? Does the government--you know, we have 
the--we have that relationship, like, with Cuba, for example.
    You know, U.S. diplomats and Cuban diplomats couldn't 
travel beyond a 25-mile radius. What is limiting their movement 
in Asmara?
    Mr. Whitaker. The current limitation is on all 
internationals in Asmara. They must apply with the Ministry of 
Foreign Affairs in advance in writing to depart from a 25-mile 
radius of Asmara.
    Ms. Bass. Okay. So I am still trying to----
    Ambassador Thomas-Greenfield. Excuse me, we have that same 
policy for Eritrean diplomats here in the United States as 
well.
    Ms. Bass. I see. So I am----
    Ambassador Thomas-Greenfield. It's reciprocal.
    Ms. Bass [continuing]. Still trying to understand the 
society so that is why I asked what is the ideology that is 
driving this. Is this a socialist regime? It reminds me of 
Cambodia, in Cambodia people were forced from the city to the 
rural areas. So what is the underlying ideology of the 
government that leads the country to be organized this way?
    Ambassador Thomas-Greenfield. I would argue that it is an 
ideology that is based on a strong sense of sovereignty and 
independence and self-reliance that came out of the many years 
of fighting and their independence movement and they are still 
a lot of people who strongly believe in that ideology and are 
willing to deal with the extensive adversity that people are 
under there to continue to survive.
    But I do think that it is time for change and I think most 
Eritreans believe that it is time for change and they deserve a 
peaceful transition.
    Ms. Bass. Do they see themselves as a socialist country? I 
know that there is very limited private sector so is that how 
they see themselves?
    Ambassador Thomas-Greenfield. I have not heard that 
terminology used. I've heard self-reliance more used as a 
philosophy.
    Ms. Bass. So what determines then in the three categories--
higher education, community service, and military? Community 
service doesn't sound bad so tell me why it is.
    Ambassador Thomas-Greenfield. They use this to ensure that 
they have the people to do the various activities that they 
require of their people. So I was told recently that you see 
large numbers of people who are in government service who are 
directing traffic outside, for example.
    Ms. Bass. Do they not get paid?
    Ambassador Thomas-Greenfield. I think it is a very limited 
amount.
    Mr. Whitaker. Yes, ma'am. It is a low pay. We've heard as 
low as $10 a month.
    Ms. Bass. Do they have parts of their lives subsidized? Is 
housing subsidized? Do they have a healthcare system? I mean, 
how do they function?
    Ambassador Thomas-Greenfield. I'd be interested in hearing 
our Eritrean colleagues, who are coming next. But I know that--
--
    Ms. Bass. Oh, okay.
    Ambassador Thomas-Greenfield [continuing]. A huge part of 
how they function is through their family members who are 
living elsewhere----
    Ms. Bass. Remittances.
    Ambassador Thomas-Greenfield [continuing]. The diaspora 
community supporting families.
    Ms. Bass. So, once again, what determines higher education, 
government service, and military?
    Ambassador Thomas-Greenfield. I think we are going to have 
to get back. Those are the three categories they use and I am 
not sure how they decide----
    Ms. Bass. Who goes where.
    Ambassador Thomas-Greenfield [continuing]. Who goes where.
    Ms. Bass. Okay.
    [The information referred to follows:]
  Written Response Received from Mr. Eric Whitaker to Question Asked 
             During the Hearing by the Honorable Karen Bass
    By law all Eritrean citizens between ages 18 and 50 must perform 
national service, with limited exceptions. The national service 
obligation essentially begins after the final year of secondary school 
at Sawa National Service Training Center. Good marks on the final exams 
are required to be assigned to one of the seven government colleges. 
Those who do not receive high enough grades are immediately assigned to 
military or national service. National service in theory consists of 
six months of military training and 12 months of active military 
service and development tasks in the military forces for a total of 18 
months. However, as we've noted, the period of service in practice is 
indefinite in nature. For those unfit to undergo military training, 
they may be assigned to a public and government organ according to 
their capacity and reportedly perform standard patrols and border 
monitoring in addition to labor such as agricultural terracing, 
planting, road maintenance, hotel work, teaching, construction, and 
laying power lines. An Amnesty International Report on national service 
called ``Just Deserters'' also found that ``conscripts collected 
through round-ups rather than through school are more frequently sent 
to military training camps than other areas of national service.''

    Ambassador Thomas-Greenfield. I think most people want to 
go to higher education----
    Ms. Bass. Yes.
    Ambassador Thomas-Greenfield [continuing]. Because it is 
not a----
    Ms. Bass. But then, okay, so you go to higher education and 
what can you do with it?
    Ambassador Thomas-Greenfield. You teach, you work in 
schools, you do whatever the government wants you to do in the 
education sector.
    Ms. Bass. And--oh, and so I am assuming that these three 
categories are both men and women. So are women in the 
military?
    Ambassador Thomas-Greenfield. Women are in the military and 
Eritrean women were known for their activities and their 
abilities during the fight for independence.
    Ms. Bass. So what is the rationale of the E.U. then in 
terms of the developmental assistance because you too said, I 
believe, we provide no developmental assistance but the E.U. 
does.
    Ambassador Thomas-Greenfield. It's simple and it just 
started. It's because they are the largest beneficiary of these 
5,000 people a month who are fleeing the country.
    Ms. Bass. Oh, they want them to stay there. Right.
    Ambassador Thomas-Greenfield. They are looking for 
development opportunities so people don't leave.
    Ms. Bass. Do you know how they do development assistance, 
meaning are there European NGOs that actually get the money 
versus the Eritrean people?
    We fund NGOs a lot of times, right? Our own NGOs.
    Mr. Whitaker. Yes, ma'am. The E.U. Development Fund does 
provide funding through specific ministries, especially in 
health and education. JICA is there, the Japanese International 
Cooperation Agency.
    The NGOs include Finn Church Aid, the Norwegian Refugee 
Council, Vita from Ireland and they provide services 
predominantly in health and education sectors as well.
    Ms. Bass. Do you think we should start providing 
assistance?
    Ambassador Thomas-Greenfield. I don't think we've reached 
the point where we can provide assistance to this government. 
We are looking for certain changes to occur in how the 
government functions, how the government operates and how it 
treats its people. So at the moment there are no plans for us 
to provide for their assistance.
    Ms. Bass. Are people still trying to flee to Israel?
    Mr. Whitaker. Ma'am, I don't believe so. The pattern that I 
have noted, and this is in discussion with UNHCR and quite a 
number of others including ICRC, is that most refugees depart 
for Ethiopia or Sudan, finding their way up through Egypt and 
Libya, going across the Mediterranean often to join relatives 
that are in Italy, the U.K., Switzerland or elsewhere within 
Europe.
    Ms. Bass. Thank you very much.
    I yield back.
    Mr. Smith. Just let me ask one final question, if I could. 
In her testimony, Ms. Bruton, deputy director of the Africa 
Center at the Atlantic Council, points out that what so far is 
missing from the record is Eritrean Government's point of view.
    She testifies that the absence of this perspective is 
terribly dangerous to U.S. interests in the Horn of Africa and 
beyond and it is painfully, then, easy to get it wrong.
    Obviously, with Mr. Whitaker here who has been in-country 
and was our representative there as Charge d'Affairs, and 
Ambassador Thomas-Greenfield, your work with the entire backing 
of a State Department that works very hard to get it right, 
have we misperceived Eritrea somehow?
    It seems to me that when it comes to fundamental human 
rights and as you both have said people voting with their feet 
because of a serious wave of repression and poverty, self-
isolation of shooting one's self in the foot, when people raise 
the issue of adjacent Ethiopia--both Greg and I were in 
Ethiopia in 2005 and met with President Meles and on the plane 
began sketching out the Ethiopian Human Rights Act because so 
many dissenters were shot in the streets.
    And yesterday we introduced H. Res. 861 and are planning a 
series of hearings on Ethiopia to very strongly protest the 
gross violations of human rights, the murders that are taking 
place.
    At our press conference yesterday we had the silver 
medalist for the marathon who spoke very effectively about this 
attack on Ethiopia.
    And so this subcommittee takes a back seat to no one in 
trying to be as clearheaded and focused on human rights abuses 
wherever and, of course, the country, on human rights 
practices, is a textbook on these abuses, and I thank you for 
that. Again, the CPC designation couldn't be more clear and the 
Tier 3 designation in the TIP Report couldn't be more clear as 
well.
    So are we somehow getting it wrong, as Ms. Bruton suggests?
    Ambassador Thomas-Greenfield. Sir, I think the facts on the 
ground in Eritrea speak for themselves. We are dealing with a 
situation where we do have strong evidence of violation of 
human rights in Eritrea.
    But that said, it is important that we engage this 
government and we do engage the government. We have diplomatic 
relations with the Government of Eritrea and so we do engage 
with this government, both through our Embassy in Asmara as 
well as through our contacts with the Charge d'Affairs here and 
when they've had government officials come to the country and I 
encourage the Eritrean Government to engage.
    If they have a story to tell, if they want us to understand 
the situation better, the Somalia-Eritrea Monitoring Group 
should be allowed to come in and should be allowed to engage so 
that they can tell their side of the story so that if we are 
not getting it right we can see the evidence of that.
    But right now, the evidence that we have point to the fact 
that serious human rights conditions exist in this country and 
that we need to continue to address those until we see that 
they no longer exist.
    Mr. Smith. And Mr. Whitaker, thank you so much for your 
testimony. If you could get back with some of those answers to 
elaborate and we might have some additional questions that will 
be posed to you, we would deeply appreciate it.
    I'd like to now welcome our second panel, beginning with 
Father Habtu Ghebre-Ab. He serves as a parish priest in Holy 
Trinity Eritrean Orthodox Church in Cincinnati, Ohio.
    He is also the director of external relations for the 
Canonical Eritrean Orthodox Church in Diaspora under the 
imprisoned Patriarch and His Holiness' designated bishop. The 
Diaspora Diocese includes all of North America, Europe, and the 
Middle East.
    He is a senior faculty member with a rank of full professor 
at the University of Cincinnati where he has taught for over a 
quarter of a century. The focus of his study is African 
history, specializing in colonial history in the Horn of 
Africa.
    For several years now he has published several articles on 
and advocating for religious freedom, separation of church and 
state and on behalf of all political prisoners in Eritrea.
    Secondly, we'll hear from Dr. Khaled Beshir, who is a board 
member of the Awate Foundation, a world media service on 
Eritrea which promotes peace and reconciliation within Eritrea. 
He is an independent risk management consultant and subject 
matter expert in the Horn of Africa, specializing in 
development finance.
    He advises various U.N. agencies, international 
organizations, investors, and law firms on assessment of 
geopolitical, regulatory, and financial risks. As an Eritrean-
American and longtime advocate of human rights in Eritrea for 
the last 25 years, he works closely with Eritrean civil 
societies, political organizations, media outlets, and 
community leaders.
    In 2000, he was a member of a group of Eritrean 
intellectuals and professionals who met with the Eritrean 
President and urged him to introduce political and economic 
reform and respect for the rule of law.
    And third, we will hear from Ms. Bruton, who is deputy 
director of the Atlantic Council's Africa Center. She is a 
recognized authority on the Horn of Africa. She is especially 
well-known for authoring a series of prominent reports and 
journal essays on Somalia. She provides regular expert 
commentary on African political affairs for major international 
media and held an international affairs fellowship at the 
Council on Foreign Relations and the Center for Strategic and 
International Studies.
    Prior to her fellowship appointment, Ms. Bruton managed the 
National Endowment for Democracy's multi-million dollar 
portfolio of small grants to local and international 
nongovernmental organizations operating in east and southern 
Africa and managed post-conflict political transition programs 
in Africa for the U.S. Agency for International Development.
    She has also served as a policy analyst on international 
affairs and trade team for the Government Accountability 
Office.
    So Father Habtu, if you could begin.

   STATEMENT OF FATHER HABTU GHEBRE-AB, DIRECTOR OF EXTERNAL 
   RELATIONS, CANONICAL ERITREAN ORTHODOX CHURCH IN DIASPORA

    Father Ghebre-Ab. The Honorable Chairman Smith and members 
of the subcommittee, I thank you for the privilege of being 
here today to give my testimony on the challenges Eritrea 
represents and why failure to positively contribute to the 
resolutions of these challenges will affect the entire region 
and beyond.
    My name is Father Athanasius Habtu Ghebre-Ab. I am an 
Eritrean-American, a professor of history at the University of 
Cincinnati and an ordained priest in the Eritrean Orthodox 
Church.
    I am pained by the general instability in the Horn of 
Africa and the unresolved conflict and animus between Ethiopia 
and Eritrea, which, in one way or another, remains at the very 
root of the instability in the region.
    We also note the untold and continuing suffering of the 
people of Eritrea and the dashing of the early optimism and 
hopes the world initially saw for this new country.
    We have also witnessed the extreme reluctance of the United 
States, a country which the people of the region rightly or 
wrongly have historically looked to as a reliant mediating 
power.
    In the remaining time I have, please allow me to speak to 
you about one aspect of Eritrea's egregious human rights 
violations, namely, its denial of religious freedom to its 
people, a subject of my expertise.
    The following are but a few facts. Long before all the 
independent press in Eritrea were ruthlessly shot down in 
September 2001, the publications of the Eritrean Orthodox 
Church and the Roman Catholic Church were shut down.
    In 1994, the Jehovah's Witnesses became the first victims. 
Within a month, the government unleashed massive campaigns of 
arrest and disappearance against the Muslim community in 
Eritrea.
    Next, the government's systematic anti-religious campaign 
moved to the ranks of the military, especially in Sawa, the 
sprawling military training camp near the Sudanese border.
    Here, all Bibles were confiscated and anyone caught praying 
was subjected to the cruelest treatments by the military 
establishment. This practice was soon expanded throughout the 
military across the country.
    In April 2002, the government passed a sweeping decree 
closing all minority Christian denominations and other sects. 
Soon after, the leaders and adherents were vigorously rounded 
up and imprisoned and I personally witnessed that at the time.
    The government accelerated the total control of the largest 
and most ancient religious institution in Eritrea, the Eritrean 
Orthodox Church.
    In November 2004, the leading lights of the church were 
imprisoned. A little over a year later, the Patriarch of the 
Eritrean Orthodox Church, His Holiness Abune Antonis, was 
illegally deposed from his Patriarchal throne and imprisoned.
    This was followed by the subsequent imprisonment of 
hundreds of other clergies. Today, it is estimated that between 
2,000 to 3,000 people are in prison for their faith.
    The question now is what is to be done to bring about 
stability to Eritrea and the region. The Eritrean Government 
should immediately implement the Constitution that was ratified 
in 1997 but was never implemented.
    This will guarantee its people the rights enshrined 
therein, thus removing fear, uncertainty and the guarantees of 
rights.
    The so-called national service has degenerated into an 
unsustainable, unjust and immoral practice which results in the 
youth fleeing the country in such a large number it must come 
to an immediate end.
    The thousands of prisoners of conscience must be released. 
The United States should reengage with the Government of 
Ethiopia and Eritrea to end the so-called ``no war, no peace'' 
state of affairs for the past 16 years and mediate lasting 
peace in the region by helping in the implementation of the 
Ethiopian-Eritrean boundary commission ruling of April 13, 
2002.
    Eritrea and Ethiopia must be encouraged to cease hosting 
armed opposition groups in their respective countries to 
destabilize one another. Again, I thank you.
    [The prepared statement of Father Ghebre-Ab follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you so very much for your testimony and 
for your concrete recommendations to the subcommittee and by 
extension to the White House and the State Department. Thank 
you so much.
    I'd like to now ask Dr. Beshir if you would proceed.

    STATEMENT OF KHALED BESHIR, PH.D., BOARD MEMBER, AWATE 
                           FOUNDATION

    Mr. Beshir. Thank you, Mr. Chairman, Ranking Member Bass 
for giving me this opportunity to testify in this important 
hearing to evaluate the U.S. policy toward Eritrea. My name is 
Khaled Beshir. I am a long time advocate of human rights in 
Eritrea.
    My testimony will be shaped by 25 years of closely 
following the activities of the Government of Eritrea, those 
who are still in power and those who were once in power who 
have been exiled or made to disappear, and I presume in jail or 
dead.
    In this hearing, I will try to, as I outline it in my 
written statement, say why the unconditional engagement of 
Eritrea as recommended by some is dangerous and a short answer 
to that it has been tried before.
    To start with, the reason the Eritrean regime is as bad as 
it is, topping the list of every human rights organizations is 
precisely because for 8 long years the United States and 
Western Europe gave it unconditional support.
    This was between 1991 and 1998. When the new government was 
given the benefit of the doubt, the Clinton administration 
provided military assistance, facilitated low interest loans 
and grants, and contributed in capacity building and praised 
the autocratic system routinely, calling it part of the Africa 
Renaissance, a short-lived description praising the heads of 
state of Ethiopia, Uganda, Rwanda, Congo, and Eritrea.
    And what was the outcome? Ethiopia is what you see in the 
headlines today. The leaders of Uganda and Rwanda amended their 
Constitutions to extend their rule. Congo descended into civil 
war. And it is during that period of unconditional engagement 
that all these atrocities in Eritrea the Eritrean regime is 
infamous for--arbitrary arrest, disappearance, banning 
religious organizations, exiling, severe restriction on civil 
liberties--were germinated.
    So for those who are arguing that there should be 
unconditional resumption of U.S.-Eritrean relations all they 
need to look is back at the history of the early 1990s and this 
is why we are here.
    As far as the human rights conditions are concerned, it has 
been extensively covered by the U.N. Special Rapporteur on the 
situation of human rights in Eritrea and the Commission of 
Inquiry on Human Rights in Eritrea.
    So rather than speaking about the human rights violations 
in Eritrea--it has been extensively documented--I would like to 
speak about--very little known about the role of Nevsun, the 
Canadian mining company that has finally disclosed that it has 
been funding the Atlantic Council campaign for the last 18 
months to rehabilitate the image of Eritrea and whitewash the 
human rights abuses and calling for the unconditional U.S. 
engagement in Eritrea.
    The reason is the interest of Nevsun, the mining company, 
is intertwined with the interests of the regime. Nevsun 
Resource is a Canadian mining company and the Eritrean 
Government, through ENAMCO, jointly owned the Bisha Mine. 
That's the only source--revenue-generating source for Nevsun.
    Why, you might ask why, would that be important for Nevsun? 
Aside that it has been accused of militarizing commerce and 
using slave labor in building the Bisha Mine is for the 
following reason.
    Simply, in the last 5 years the stock valuation in Nevsun 
has stagnated at about $3.50 for the last 6 years. This is 
unusually very low for a company that sits at $1.3 billion of 
assets.
    So Nevsun tried many things to improve this image. It sold 
and failed to be acquired by a larger firm. It failed to 
diversify its single source of revenue from Bisha. It failed to 
impress investors and shareholders by glossy and unaudited 
corporate responsibility and environmental reports.
    It has failed to shake off its reputation as an enabler of 
human rights-abusing regimes. It has failed the human rights 
organizations that it no longer uses slave labor. It failed to 
comply with the United Nations Somalia-Eritrean Monitoring 
Group's request to disclose financial transactions records.
    Simply, it has failed to bring any meaningful economic 
betterment to the lives of Eritreans other than enriching the 
coffers of the regime.
    So Nevsun thought to rehabilitate its image instead. 
Knowing that its efforts were hampered by Eritrea's dismal 
human record, Nevsun quickly settled multiple lawsuits, paying 
close to $30 million, hired a public relations firm, hired a 
purported human rights attorney, and courted the diplomatic 
community in Asmara.
    Still, all its efforts failed. While overt attempts failed 
to make a dent, Nevsun turned to a more subtle approach to 
funding the Atlantic Council to rehabilitate its image and that 
of Eritrea so that it can lobby on its behalf.
    We often see the vice president of Nevsun and one of the 
associates of the Atlantic Council, Ms. Bruton, appearing in 
the ruling party's events and rallies and speaking to drum up 
support for the regime.
    So in short, to conclude my statement, I would like to say 
that Eritrea is mineral-rich country. It's strategically 
located in the Horn of Africa and the Red Sea where the U.S. 
has vital strategic interests and legitimate concern in its 
ongoing counterterrorism campaign.
    Hence, the U.S.' strategic interest should not depend on 
the fate of one ailing man, particularly when dealing with a 
regime that not only does not share any of the values of the 
U.S. enshrined but routinely mocks it.
    While recognizing that the Eritrean people's challenge 
could only be resolved by Eritreans, it is prudent for the U.S. 
to be prepared to deal not with how to rehabilitate President 
Isaias' image, who has no support by Eritreans and rules by 
fear, but with the post-Eritrea by taking the following steps 
aimed at shortening the suffering of the Eritrean people and 
safeguarding U.S. interests in the region and they are as 
follows: To deny President Isaias the excuse to maintain a war 
footing, pressure Ethiopia to allow the demarcation of the 
border and to proceed at least in the 95 percent of the 
undisputed borders area, continue making human rights issues a 
precondition for U.S.-Eritrea relations, continue supporting 
the current U.N.-sponsored sanctions against Eritrea until the 
conditions for lifting are met, support the U.N. Security 
Council members' initiative to refer the U.N. Human Rights 
Commission of Inquiry to the International Criminal Court, 
provide humanitarian assistance to Eritrean refugees and to 
provide immigrant visas to help them come to the U.S. and ask 
other countries to do so, especially of the unaccompanied 
minors that are fleeing Eritrea now and Ethiopian--in the 
refugee camps in Ethiopia. Also provide temporary protective 
status for Eritrean refugees who are already in the U.S., to 
support regional organization government efforts in combating 
human trafficking in the Horn of Africa but also, most 
importantly, I urge you to sanction mining companies like 
Nevsun that are engaged in militarized commerce and using 
conscripted labor force by designating their production as 
conflict minerals.
    People who suffer under totalitarian regimes look up to the 
world community, especially the United States, for support. 
They become disappointed and disillusioned when they discovered 
misinformed consultants in a position to advise government.
    It is disheartening to see aggressive approaches to 
absolving a totalitarian regime, the individuals who have no 
personal stake in the outcome and only interested to promote 
their careers and personal interest.
    The liberal democratic force in Eritrea has a great 
potential to grow but attempts to bury it in its infancy by 
using the ``there is no viable opposition'' claim is a crime 
against the Eritrean people.
    I urge this august body not to repeat the mistakes 
committed during the Clinton era when the Eritrean dictator was 
hailed as a renaissance leader and provided with all the source 
of support, a lifeline that had helped it grow into the monster 
that it has become.
    I urge this body to take the right decision, a decision 
inspired by American values. I urge you to remain a beacon of 
hope for the young democratic force, inspire them with the 
right decision, with the much-wronged Eritrean citizens in 
mind.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Beshir follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you so very much, Dr. Beshir.
    I would like to now go to Ms. Bruton for her testimony.

   STATEMENT OF MS. BRONWYN BRUTON, DEPUTY DIRECTOR, AFRICA 
                    CENTER, ATLANTIC COUNCIL

    Ms. Bruton. Thank you. I am grateful to Congressman Smith, 
the chair and Congresswoman Bass, the ranking member, for 
allowing me to contribute to the subcommittee's timely review 
of U.S. policy toward Eritrea.
    I have had the opportunity to travel to Eritrea several 
times in the last 18 months. I have met repeatedly with senior 
officials in the country and I have had an opportunity to meet 
once with President Isaias for a long meeting in which we spoke 
very candidly about the state of affairs in Eritrea and about 
the state of U.S. relations with Eritrea.
    What I am presenting is a summary of my written testimony 
and I ask that my written testimony be entered into the record.
    Mr. Smith. Without objection, yours and all of our 
witnesses today. Without objection.
    Ms. Bruton. Thank you. I imagine we'll talk about Nevsun 
later on so I would like to use my brief spoken remarks to 
raise a flag of caution.
    I, as you mentioned, am a Somalia expert and I want to 
briefly turn our attention back to Somalia in 2006. When the 
United States accepted Ethiopia's allegations that the Union of 
Islamic Courts was an evil regime--an entity that was 
controlled by al-Qaeda--and as a result of that we allowed or 
perhaps more than allowed Ethiopia to invade Somalia, in doing 
so they destroyed the only legitimate grassroots governance 
movement that has ever emerged in that country, at least since 
independence on the 1960s.
    Not only that, we cleared a space for al-Shabaab and we 
created the conditions in which it prospered and is now a 
terrorist organization that is spreading carnage across east 
Africa.
    I raise this because I feel it is important for us to 
remember that though we do our best, we in the United States 
are capable of catastrophic mistakes when it comes to the Horn 
of Africa, and I want to particularly point out that all of the 
conditions that led us to make those mistakes in Somalia in 
2006 pertain to our discussion of Eritrea today.
    When it comes to Eritrea, unfortunately we are also guilty 
of a bias to the Ethiopian point of view. I saw that bias 
evident in my respected colleague, the Assistant Secretary's, 
remarks when she was asked about the reason for the Ethiopia-
Eritrea conflict and she failed to note that Ethiopia is in 
violation of international law.
    There is a firm and final binding of an international 
border commission set up in the Hague that says very clearly 
that Ethiopia is illegally occupying Eritrean territory.
    We need to accept that, and our refusal to do so is, I 
think, a fairly clear sign of our bias toward the Ethiopian 
point of view.
    That led to an error in Somalia that cost us dearly. As in 
2006, I wish to remind us that it had been about 10 years since 
we'd had eyes on the ground in Somalia and our intelligence was 
very poor.
    In Eritrea today, it has also been about a decade since we 
have had eyes on the ground in that country and our 
intelligence is very poor.
    When I planned to go to Eritrea 18 months ago I met with a 
large number of government officials and members of our 
intelligence community and when I asked a particularly 
brilliant member of our intelligence committee who had studied 
Eritrea for 10 years, what I should be alert for when I went to 
the country she told me this: Find out if there is a government 
in Eritrea outside of Asmara.
    Now, we've heard from our human rights community, who 
rightly expresses concern about the terrible state of affairs 
in that country, that the government exercises pervasive 
control over every aspect of life.
    But we also have people in our intelligence community, and 
I would agree with their assessment, who wonder if the 
government really has any control at all outside of the capital 
city.
    That is a worrying state of affairs and I think that it 
should cause us to exercise a real caution. I've heard a large 
number of statements today that were presented uncomplicatedly 
as fact but which I am aware of are hot topics of dispute 
within the intelligence and analytic community that if had the 
time I would go over them. But I've certainly highlighted most 
of them in my written testimony.
    Finally, I want to express that I was in Somalia in 2006 
and I feel we have a bit of tunnel vision in Eritrea. It's an 
immensely complicated country with real security concerns and a 
real problem with its much more powerful neighbor.
    But the vast majority of our conversation is about human 
rights.
    It's okay and it is well and good that we should discuss 
human rights. But those concerns should be addressed 
proportionately.
    All the countries in the Horn of Africa have hideous human 
rights problems including our closest ally, Ethiopia, and I 
think that when we single out Eritrea for concern we raise the 
real possibility that our views will be either regarded as 
hypocritical or else, in other cases, muted because of our 
counterterror concerns and that does damage to our standing in 
the Horn of Africa.
    In Eritrea, we can't afford to get it wrong, as we did in 
Somalia, because Eritrea is more strategically positioned on 
the Horn of Africa than Somalia is. It's right across from 
Yemen.
    It's on a critically important trade route that accepts 
trillions of dollars a year in the passage of goods between 
China and the E.U.
    If we get it wrong there, the impact on U.S. relations will 
be terrible and that will not serve our interests. Focusing on 
Eritrea as a threat to our interests instead of recognizing 
that in fact we don't recognize that it actually plays an 
important role as a wall through which bad actors in the Horn 
of Africa are not permitted to pass through to bad actors in 
the Gulf is important.
    It's a commonality that we can use to work with Eritrea and 
to constructively address the concerns that we have about human 
rights. I think I've heard consensus from a lot of people today 
that engaging the government in some way would be a good idea.
    I do not argue for nonconditional engagement with Eritrea, 
for the record. But I do believe that we could do a lot better 
and, for the record, I would like to state that I think a 
congressional delegation to Eritrea to examine the complexity 
of the issues that they are facing for yourselves would be a 
very, very good start.
    I thank you for permitting me to testify.
    [The prepared statement of Ms. Bruton follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Ms. Bruton, thank you very much for your 
testimony as well.
    I'd like to first ask Father Ghebre-Ab, if you could--you 
mentioned 2,000 to 3,000 prisoners of conscience who are 
incarcerated because of their faith and I wonder if you can 
tell us is that both men and women?
    Are children included? Are they tortured? Are there 
attempts to coerce them to reject their faith and if so to what 
end, perhaps? How long are the usual sentences for a believer? 
Is it 5 years, 10 years, life?
    And when released, where do they go? Do they leave totally 
impoverished with families? I often argue even in ordinary 
criminal justice systems when one family member goes to prison 
the whole family, in a way, goes to prison.
    It often leads to an impoverishment. But this would seem to 
be even more extreme. When they come out, where do they go? So 
if you could perhaps speak to that.
    Mr. Ghebre-Ab. It is both men and women, young and old. The 
condition of their imprisonment is about as horrid as one can 
expect.
    Now, so many prisons, recognized and unrecognized, dot the 
landscape of Eritrea. Many times no one knows where they are. 
They never appear in front of a court and charged with any kind 
of crime and therefore no one knows when they will be coming 
out.
    Now, particularly, for instance, I have made a list of 
people who have been in prison for the last 12 years now and 
they have never, never seen the inside of the court. They have 
never been charged with anything and these were, as I have 
explained in my longer remarks, the leading intellectuals 
within the Eritrean Orthodox Church. They remain in prison.
    And there has always been torture, and as previously stated 
also, an attempt at forcing them to recant their faith. Very 
often, statements have been made about minority Christian and 
other sects.
    But, really, the larger churches are not immune from this 
either--the so-called recognized churches. The Eritrean 
Orthodox Church, as I have clearly pointed out in my longer 
version of my presentation, has literally been taken over by 
the government and it has become as if it is one department of 
the government and the government's thinking, as I see it, is 
that by controlling the Eritrean Orthodox Church, which is 
almost 50 percent of its population, it thinks that it controls 
half the population of Eritrea as well.
    But I would also like to point out that really the lack of 
religious liberty in Eritrea is only one aspect of human rights 
violations and if there is going to be any improvement in human 
rights violations we cannot really cherry pick this right and 
that right. It has to be--it has to be approached in its 
totality and the only thing that will ensure that is the 
implementation of the Constitution that was ratified by the 
people in Eritrea in 1997.
    Mr. Smith. Let me ask you, if I could, Ms. Bruton, with 
regards to some of the points that were raised by Dr. Beshir--
just in the interest of full and total disclosure, do you or 
anybody that you are affiliated with derive any funding 
directly or indirectly from the Government of Eritrea or from 
Nevsun or any of its affiliates?
    Ms. Bruton. We do not derive any funding whatsoever from 
the Government of Eritrea. Nevsun, which is a publicly traded 
Canadian corporation, made a grant to the Atlantic Council in 
2015. It was----
    Mr. Smith. How much was that?
    Ms. Bruton. It was between $100,000 and $249,000. I would 
like to give you the exact amount. My understanding is that it 
is not the policy of the Atlantic Council to do that. If they 
will permit me to, I will add it to the record.
  Written Response Received from Ms. Bronwyn Bruton to Question Asked 
        During the Hearing by the Honorable Christopher H. Smith

    The Atlantic Council has received a coveted four-star ranking from 
Charity Navigator, the premier organization that ranks non-profit 
organizations across the United States, for its sound fiscal management 
and its commitment to accountability and transparency. It is the 
Council's policy to list all of our annual donors on our website and in 
our annual report, indicating the approximate magnitude and the year of 
each gift. In accordance with this policy, the Council has already 
disclosed that Nevsun Resources made a gift to the Council in the range 
of $100,000-$249,000 in FY 2015.
    In response to Congressman Smith's inquiry, I have been authorized 
to further inform you that the Council received funding from Nevsun 
Resources in the amount of $105,000 in FY 2015 (the most recent year 
for which completed financial reporting is available). As noted in my 
testimony, this grant provided general support to the Africa Center and 
was allocated at the discretion of the Center's director, Dr. J. Peter 
Pham. The Atlantic Council fully adheres to its written policy of 
intellectual independence. For context, please note as well that the 
Council had an operating budget of more than $25,000,000 and revenues 
of over $28,000,000 in FY 2015.

    Mr. Smith. If you could encourage them. It does help us to 
know if there is any financial entanglement.
    Ms. Bruton. Absolutely. Well, and regardless, a six-figure 
grant is a lot of money. There's no doubt about it. I want to 
make it clear that the grant was unconditional.
    It was general support for the Africa Center. I have no 
direct relationship with Nevsun. I have not received a raise or 
a promotion or any kind of incentive as a result of that grant. 
I do not control the funding.
    The funding is controlled by Dr. J. Peter Pham, our 
director, whose views on Eritrea are in the congressional 
record and diametrically opposed to my own. My own support for 
the Eritrean Government goes back to 2009.
    In fact, I wrote a piece in Foreign Affairs that the 
Eritrean Government attached to its letter of protest to the 
U.N. Security Council when it was sanctioned. So my views have 
long been on the record and have not been altered in any way, 
shape or form by Nevsun or by anyone else.
    Mr. Smith. To the best of your knowledge has Nevsun or any 
of those that they are working with including the Eritrean 
affiliate supported the Extractive Industry Transparency 
Initiative, or the EITI? Do you?
    We've had hearings on that in this subcommittee for years. 
We know that DRC, Tanzania, Zambia, and Mozambique are EITI 
members. Thirteen other African countries are EITI compliant. 
Ethiopia is an EITI candidate but Eritrea is not. I am not even 
sure if they are trying and maybe you could shed some light on 
that.
    And secondly, do you have a sense as to the condition of 
the workers?
    When we did Sudan sanctions in this subcommittee, and I was 
chairman then, we tried very hard to delist a Canadian company 
that was very much complicit in the crimes that were being 
committed by Khartoum, and we failed. Wall Street rose up in 
arms and said, you can't do this. We said look, they are 
garnering huge amounts of money and they are part of a regime 
that is committing horrific crimes against southern Sudan, what 
is now South Sudan--2 million dead, 4 million displaced.
    Greg Simpkins and I were just there 3 weeks ago, almost 4 
weeks ago, in Juba. It's a mess. Not the subject of this 
hearing, but a mess. But we tried to do this delisting and they 
were a Canadian oil company.
    And I am just wondering, this extractive industry, the 
condition of the workers--is there any monitoring being done? 
Are any of these kids--are any of these people child laborers? 
It was Talisman Energy--Greg just reminded me. It just slipped 
my mind.
    So what about the workers?
    Ms. Bruton. I have to say, genuinely, I have never been to 
the Bisha Mine and so I am not necessarily the best person to 
testify to the conditions.
    I can point you to a written description of Bisha by Louis 
Mazel, who's been the Charge d'Affairs in Asmara. He visited 
with a large number of other European diplomats and he, 
frankly, wrote a glowing report of conditions at Bisha. That's 
the best that I can do since I haven't seen it at firsthand.
    I would also note that the U.N. Commission of Inquiry on 
Eritrea when it wrote its first report, which I read carefully, 
contained a number of allegations about the Nevsun mine, which 
I understand they examined carefully and then dropped from the 
final version of the report because I believe that they were 
unable to substantiate them. Again, those are not firsthand 
testimonials but it is relevant that I can at least point to 
you.
    Mr. Smith. So you would support Eritrea joining EITI?
    Ms. Bruton. I would, and it is my understanding, again, 
from the diplomatic community and from conversations with 
Nevsun that they very, very much support it and are working 
actively to try to make that happen.
    They are also conducting a large number of human rights 
trainings at the Bisha Mine that I am aware that they are also 
very proud of and I feel constrained from talking too much 
about them because there is a financial relationship between 
Nevsun and the Atlantic Council, at least in the past, and I 
don't want to be their spokesperson in any way, shape or form. 
But I would point you toward what's on the record at least.
    Mr. Smith. Let me just ask you with regards to the human 
rights situation, the State Department's Country Reports on 
Human Rights Practices is an indictment on a myriad of human 
rights abuses being committed.
    I mentioned the CPC designation based on religious 
persecution and Father Ghebre-Ab elaborated on just a number of 
people who are actually incarcerated for their faith and the 
Tier 3 designation by the U.S. Department of State's TIP 
office, which painstakingly looks at child and sex trafficking, 
they're among the worst in the world. Do you agree with that or 
disagree with that?
    Ms. Bruton. I do not disagree with that.
    Mr. Smith. Okay. I'd like to yield to my friend and 
colleague, Ms. Bass, for any questions she might have.
    Ms. Bass. Thank you.
    I would like to ask the panel some of the same questions I 
asked the last panel. I am really trying to understand the 
country and so I began by asking what is the ideology that 
guides the country.
    I also asked, in the three categories of higher education, 
military, and government service, what determines that, to 
begin with. So is there an underpinning ideology that guides 
the way the country is organized?
    Mr. Ghebre-Ab. Let me try to answer the first question--is 
there a guiding ideology in Eritrea. Now, looking on the 
history of Eritrea's fight for independence, during the entire 
1970s and the 1980s and even going back to the 1960s, the 
guiding ideology was Marxism. There's no question about it, and 
when Marxism fell out of favor, they quietly seemed to abandon 
it but never officially actually abandoned it and a lot of the 
policies of the government are still informed.
    Whenever they have a very difficult time they--it seems to 
me like it is a fallback ideology and therefore there is no 
doubt about it. I mean, they always refer to themselves as a 
Marxist organization and therefore I don't think anybody can 
argue that.
    Do we see that in its policies today? Yes. It's a fallback 
ideology always, and I'll tell you something. I look at the 
publications the organizations put out, especially as it 
concerns religious freedom.
    In many publications, it actually lists the number of 
religious organizations that it was going to do away with, 
which it has, and therefore this is not really some unknown 
ideology.
    It is very, very closely tied to Marxism but also it has 
degenerated, of course, into a one-man rule. There is no 
question about that.
    Ms. Bass. So and both of you were born in Eritrea?
    Mr. Ghebre-Ab. I was born and raised--I was born and raised 
in Ethiopia of Eritrean parents. That's my academic discipline.
    Ms. Bass. Oh, I am sorry.
    Mr. Ghebre-Ab. My academic interest has always been Eritrea 
also and until 2003 I traveled to Eritrea extensively. So----
    Ms. Bass. Oh, you haven't--you're not able to go back and 
forth since 2003?
    Mr. Ghebre-Ab. No, not since 2003.
    Ms. Bass. I see.
    Mr. Beshir. Yes, I was born in Eritrea and I left at the 
age of 18 and I have been here in the United States since.
    Ms. Bass. Are you able to go back and forth or----
    Mr. Beshir. Well, the last time I went was in 2002 as a 
group of colleagues, the group known as G-13. I have one of my 
colleagues here Dr. Assefaw Tekeste. That is the group that are 
trying to appeal to President Isaias to implement the 
Constitution to reform--to loosen economic reform and, of 
course, that was kind of brushed off and we were not 
successful.
    This is in 2000, October 2000. It's been, like, 16 years. 
So this is the last time I have been here.
    As to the question about the ideology, there is no 
ideology. To characterize a totalitarian regime a tyrant, I 
wasn't trying to beat my head trying to figure out what is the 
ideology of the Ghadafi or Bokassa or Idi Amin or Saddam 
Hussein, for that matter. They're just simply tyrants trying to 
stay in power at any cost.
    Ms. Bass. So can you guys answer for me, because I keep 
asking the same question and I haven't gotten an answer about 
it.
    Mr. Beshir. Sure. Go ahead.
    Ms. Bass. About the three categories and how is it decided 
who goes where.
    Mr. Beshir. So after the eleventh grade all students go to 
the Sawa camp where they finish their high school.
    Ms. Bass. Right.
    Mr. Beshir. Based on the grade they achieve, which most of 
them there is a cutoff mark ascertained. They would go to the 
university or if there is no university there is a technical 
college where they would go to. But the majority them, almost 
like 95 percent, go in the Army--some of them as a civil 
servant in the military.
    Ms. Bass. So is it--so it is based on test scores?
    Mr. Beshir. Yes.
    Ms. Bass. Some people who don't score well go to the 
military or if you score well you go to the military?
    Mr. Beshir. No, if you don't score well, you go to the 
military. You have to have high grades to advance to the 
technical colleges. But the cut-off is so high and they are 
very selective. Ninety-five percent of them end up in the 
military, for a simple reason--because Eritrea doesn't have the 
capacity to absorb all of them or even a large portion of them.
    There are very limited seats at the technical college. So 
most of them end up in the training--in the Army or being sent 
as conscripts in the Bisha Mine to work in the mines in Bisha.
    Ms. Bass. Okay. So----
    Mr. Beshir. To answer your question, there are also 
appointments to the government. The qualification is simply on 
loyalty, especially mid-cadre and upper government.
    Ms. Bass. Okay.
    Mr. Beshir. You cannot possibly work for the Eritrean 
Government if you failed the loyalty test. All the high 
government officials are very fiercely loyal to the government.
    Ms. Bass. Okay.
    Mr. Beshir. How do we know that? From the defection of the 
minister, the journals, the high-ranking military who defect. 
We talk to them and this is the reason that the brain drain--a 
lot of smart well-educated people leave the country. So there 
is a huge gap--a shortage of technical people who have 
administrative or technical ability and this is one of the 
biggest concerns.
    Ms. Bass. Okay. Thank you.
    Ms. Bruton, you support the Eritrean Government?
    Ms. Bruton. What I--what I think is that saying that I 
support the Eritrean is--to me, it is vague statement.
    Ms. Bass. Okay.
    Ms. Bruton. I don't think that there is a viable 
alternative to the Eritrean Government and I think that if we 
want to help the people of Eritrea there are two ways to do it.
    One, we can push for some disorderly change of power that 
is likely, in my opinion, to lead to a situation that looks a 
lot like South Sudan or Somalia.
    Or we can work with the present government to try to 
persuade them to address some of our concerns, for their own 
sake.
    You asked a question about ideology.
    Ms. Bass. Yes.
    Ms. Bruton. I think the Eritrean Government has a very 
strong ideology. I think they themselves have, especially in 
recent times, pointed out that their ideology has not been as 
successful as they would have wanted it to be.
    For me, when I look at the situation in Eritrea I see, 
unfortunately, a very painful limbo and I think that that limbo 
is primarily caused by the fact that the Ethiopian Army is 
occupying Eritrean soil.
    And it is not only that they are occupying the border. 
There are assaults on the border. One of the----
    Ms. Bass. There are what? What did you say?
    Ms. Bruton. Assaults on the border.
    Ms. Bass. Assaults.
    Ms. Bruton. One of them in July was a very serious assault.
    Ms. Bass. Yes.
    Ms. Bruton. There are bombings of Eritrean territory that 
are not reported in the press. The Prime Minister of Ethiopia, 
Hailemariam Desalegn, has repeatedly promised to invade Eritrea 
in the Parliament.
    This has persuaded Eritrea, not unreasonably, that it is in 
a state of threat constantly and that is one of the reasons 
that they have prolonged the national service.
    Others disagree and I acknowledge the disagreement. They 
say well, Eritrea could just ignore the threat and disband the 
military.
    But it is hard for me to see how they could do that, 
particularly because, as my colleagues have pointed out, almost 
all the jobs in Eritrea are performed by national service 
volunteers and transforming those positions into paid private 
sector and civil service posts takes a certain amount of money.
    Ms. Bass. So when you said there is--they do have a strong 
ideology you didn't describe what the ideology was. Do you 
agree that it is Marxist ideology?
    Ms. Bruton. It was--it was Marxist ideology in days past. I 
think that they abandoned the explicit ties to Marxism quite a 
while ago. But I would certainly characterize it as socialist. 
They don't call it socialist but that is how I would 
characterize it, yes.
    Ms. Bass. So when you say the community service--government 
service is voluntary, how do people feed themselves? How do 
they--they receive no salary? They're forced to work for the 
government?
    Ms. Bruton. If you were to speak with diplomats or an 
Eritrean on the street--I've asked a lot of people on the 
street in Asmara about national service. Some of them have 
horrific experiences with it.
    There is no doubt. I don't question the testimony of any 
person who, for example, has spoken to the Commission of 
Inquiry. I am grateful for their courage in coming forward.
    But there are also many people that I have spoken who have 
said things like national service is I go on Friday, I give my 
boss my paycheck and the rest of the time I do my normal job, 
or national service is a few hours a day and they drive a taxi 
cab for the rest of the time.
    I am not in a position to be able to say which of those 
experiences is the norm. But I would certainly point out that 
anecdotally when I talk to people that is the kind of 
experience they express.
    Ms. Bass. So does the government subsidize parts of life? I 
mean, how--because the way it is been described is--it is 
forced labor, it is slavery. People are not paid. So I am just 
trying to figure out which is it.
    Ms. Bruton. People are very poor and the wages for the 
national service are not living wages. They are a pittance. 
They're worse than a pittance.
    Ms. Bass. So does the government subsidize or is everybody 
starving?
    Ms. Bruton. No, there is not that much hunger in Eritrea 
that I've ever witnessed. The government does provide a voucher 
that provides for basic goods. If you want to more than that 
basic basket the cost of goods is very high.
    I think people depend, as in other African nations, very, 
very heavily on remittances and on the informal economy and 
jobs--second jobs, third jobs--that they really scrape 
together.
    Ms. Bass. So how----
    Ms. Bruton. The economic condition is not good.
    Ms. Bass. So how do you explain then the 5,000 folks a 
month that leave and all of the human rights reports about 
Eritrea?
    Ms. Bruton. The latest figures that I have seen from the 
U.N. has been more like 3,000 refugees a month. You know, I can 
look at that and----
    Ms. Bass. That's a lot of people.
    Ms. Bruton. It's still a lot of people. I don't know how 
many Eritreans really leave. There is a lot of talk, for 
example, that I have heard confirmed by members of the human 
rights community that, for example, Somalians, Ethiopians, and 
Sudanese sometimes adopt Eritrean personas because of the 
privileged status that Eritrean refugees have in Europe.
    Until very recently they've had an automatic asylum 
preference and that is led a lot of people to say, for example, 
that they are Eritrean.
    I have no idea what the numbers are.
    Ms. Bass. Well, whatever the numbers are, why are a lot of 
people fleeing?
    Ms. Bruton. I lot of people are fleeing because the human 
rights situation is terrible. A lot of people are fleeing 
because the economic situation is terrible.
    I would point out to you that if you look at Somaliland, 
which is very close to Eritrea and is known as kind of a 
democratic oasis in the Horn of Africa, the vast majority of 
youth leave Somaliland too because they don't have economic 
options.
    Migration is a reality for a lot of people in Africa and 
Eritrea is no exception.
    And I do agree, it is worse because of the human rights 
situation and the ongoing war with Ethiopia.
    Ms. Bass. And just one last question. So what is the human 
rights situation, from your vantage point--from your viewpoint? 
What are the human rights abuses?
    Ms. Bruton. I think that all of the human rights abuses 
that have been described are absolutely real. I think that the 
question is, and the reason that I asked the question earlier 
from the intelligence officer who asked is there a government 
in Eritrea, are these abuses systemic.
    Are they the result of deliberate government policy or how 
much are they the result of poverty, the ``no peace, no war,'' 
bad behavior by people outside of us or that the government has 
a poor grip on--what is the relationship between the political 
side of the government and the military?
    We have virtually no knowledge of that. I have no doubt 
that the military are bad actors. The extent to which their 
behavior is condoned by the government I don't really know.
    I've talked to senior people in the government in Asmara, 
and I may be super naive, but sometimes I think they really 
believe that human rights abuses don't exist or if they do that 
they are very, very few and far between.
    Ms. Bass. So you're able to go?
    Ms. Bruton. Yes, and to travel very freely.
    Ms. Bass. Did you two want to say something before I close?
    Mr. Ghebre-Ab. I would most definitely like to say 
something.
    The people of Eritrea who have been victims of the most--I 
mean, the cruelest power I have ever read about or even seen 
are--it seems to me like there is an effort to make it look so 
much better than it really is.
    For me, what do we expect government officials to say? 
These are the very same people who have been designated--who 
have been designated as having committed crimes against 
humanity by the United Nations Commission on International----
    Ms. Bass. Are you referring to the people that she was 
talking about?
    Mr. Ghebre-Ab. Yes.
    Ms. Bass. Is that what you're reacting to?
    Mr. Ghebre-Ab. Yes. Let me tell you, I am a priest. I am in 
contact with the people who have left the country so many 
times. I've been to Israel a couple of times and have 
interviewed so many people and know how the people feel and how 
they have suffered and suffered under this regime.
    And therefore this effort to make it look like Eritrea is 
doing its best and because the President said this and that, 
government officials say this and that, it does not represent 
what the people experience and what the people go through at 
all.
    There is an utter poverty precisely because of the policies 
of the government and something was said about vouchers. The 
voucher system was designed to control the people.
    You get vouchers if you are loyal and if your loyalty is 
questioned your vouchers are held up, which means that the 
things that you rely on on a daily basis you are denied.
    Ms. Bass. Okay. Thank you. Yes?
    Mr. Beshir. Can I just make a comment? I am just really 
baffled by Ms. Bruton's statement. I don't know what country 
she's talking about, really, because every statement she made 
that is the talking point of the regime. You can read it 
everywhere. You can read it in the Web site and she has 
categorically denied that she has association with Nevsun.
    Why does she appear on the ruling party's rallies and event 
in the U.S. jointly with the vice president of Nevsun? I mean, 
there are pictures of her trying to whip up support for the 
President attending these events. For me, it is really mind 
boggling that she denies having any relationship with Nevsun.
    As to the comments of the issue of the economic conditions 
or the social conditions, she's absolutely right. The issue is 
very complicated and we shouldn't get it right.
    The problem is she has gotten it right so many times in the 
short 18 months she has been interested in Eritrea. She got it 
right--she got it wrong when she said there is no involvement 
in Eritrea and Somalia--there is no involvement of support for 
al-Shabaab.
    She got it wrong when she said about the Commission of 
Inquiry. She has gotten in wrong so many times in the short 
period she became suddenly interested after Nevsun start 
funding the Atlantic Council. That's in the----
    Ms. Bass. Okay.
    Mr. Beshir. So she's right. It's very complicated and we 
should get it right.
    Ms. Bass. Okay. Thank you very much, and I yield back.
    Mr. Smith. Thank you, Ms. Bass.
    I'll just conclude with a few final questions. Dr. Beshir, 
you, in your testimony, said that since it ended the gold 
production phase and moved to copper production, which requires 
more logistical support and infrastructure to export, Nevsun 
has relied on the Eritrean Ministry of Defense, provided with 
slave labor for mining and security and transportation 
services.
    You pointed out that every year the Eritrean Government 
rounds up about 20,000 eleventh grade students 16 to 18 years 
of age to finish senior high in Sawa military camp afterwhich 
most, except the tiny minority, are conscripted. The 
overwhelming majority of the youth are sent to work for the 
ruling party's companies which supply slave labor to Nevsun and 
other companies.
    And then you go on and your--again, your testimony will be 
made a part of the record. You point out and remind us of the 
Human Rights Watch report of January 2013 in which that report 
said Nevsun's experiences show that be developing projects in 
Eritrea mining firms are walking into a potential minefield of 
human rights problems. Most notably, they risk getting 
entangled in the Eritrean Government's uniquely abusive program 
of indefinite forced labor, and elsewhere you pointed out the 
environmental degradation issue which is another one as well.
    Could you elaborate on that and, Ms. Bruton, if you could 
speak to that as well. Hundreds of thousands--whatever the 
number of young people or any people who are forced to be part 
of this.
    I remember in Burma when an American oil company was very 
much a part of the junta there in Burma was forcing them to be 
part of building a pipeline and many of us raised strong 
objections to that Texas-based oil company doing that.
    No matter where it is it is wrong and so the accuracy of 
the Human Rights Watch report and you also point out WikiLeaks 
also has some insights on that as well. Could you elaborate on 
that?
    Mr. Beshir. Yes. The 20,000 number is the high school 
graduates. This is what I mean--every year there are about 
20,000. That's what I meant by that.
    There are a couple of lawsuits in Canada filed by former 
conscripts who are in Canada and some of them the U.S. and in 
Ethiopia.
    I just spoke just last night to the attorney who is 
representing them to get an update of where the case is and he 
told me that Nevsun has filed a motion to dismiss the case and 
they suggested that the case be tried in Eritrea--the same 
tactic Nevsun has used when asked to disclose financial 
transactions to the U.N. Monitoring Group. They refer the 
request to the Eritrean Government and what the Eritrean 
Government has asked about financial transactions or records 
about Nevsun they will say well, you have to ask Nevsun.
    So there is a case to be decided in the next couple of 
months if the judicial system is capable of handling this case. 
There is a pending lawsuit filed by three former conscripts who 
allege human rights abuse and all the allegations that were 
listed in the human rights report.
    Mr. Smith. Ms. Bruton?
    Ms. Bruton. I don't want to pretend to know more that I 
know about mining. But I do want to say that I think you raised 
a very important concern when you said that Western firms 
operating in Eritrea run the risk of becoming entangled even if 
they are careful, at least in reputational damage because of 
the national service program and that has had severe 
consequences.
    The consequences are that China is taking over, basically. 
All of the mining projects that are coming online, five or six 
big ones in Eritrea, are Chinese firms and you may have good 
opinions of Nevsun or bad opinions of Nevsun but Canadian firms 
have more to fear from public relations scandals than Chinese 
ones do and they tend to be more concerned about safety and 
human rights and other things.
    And I personally think that ceding that ground to China is 
not in the interests of the Eritrean people. I think it would 
be great to get Western investment into Eritrea because I think 
that there is a positive influence to be exerted there and it 
is one that the Eritrean Government will be responsive to 
because it is investment and that is often the best way to get 
change.
    Mr. Smith. But, again, all the more reason why EITI ought 
to be a very serious goal and I don't disagree even this much 
with the China concern. I chair the Congressional-Executive 
Commission on China.
    China's human rights abuses--Xi Jinping is in a race to the 
bottom with North Korea when it comes to those abuses and that 
is manifested all over Africa where they can get away with it.
    So but the standard for Canada or the United States or any 
other country in Europe or Africa ought to be so high for OSHA 
type protections, for occupational health and safety and a 
living wage to ensure and certainly no forced labor.
    Dr. Beshir?
    Mr. Beshir. Can I just make a quick comment?
    Even if Nevsun becomes transparent and we have all this 
disclosure about corporate responsibility and environmental 
reports, these are unaudited reports.
    There is no civil society. There is no independent 
verification of what Nevsun or any Western company would claim 
in the absence of civil society's independent verification.
    So that just becomes a useless exercise because all this 
report that we hear they have been unaudited. There is no third 
party verifying them. So the notion is the Chinese are coming 
and we should stay there.
    As you have pointed out, the Canadian company is very 
notorious for human rights violations in the last 20 years. So 
basically when they call themselves Canadian companies they are 
U.S. companies operating out of Canada because they escape the 
strict regulations of the Securities and Exchange Commission so 
they get listed in the New York Stock Exchange and the Toronto 
Stock Exchange so that they can access the capital market of 
the U.S.
    But in a sense they are mostly U.S. investors escaping SEC 
regulations or filing of disclosures and so forth.
    So, basically, if you look at the percentage of shares 
owned by Nevsun, they are mostly U.S.--about 80 percent of 
them. The reason is the Canadians, they don't have a strong 
central security exchange like we have here.
    Each province in Canada has its own supervisory similar to 
SEC and often times there is no stringent disclosure 
requirements either of human rights violations or environmental 
reports.
    Nothing is filed. It's the least required disclosure that 
the Canadian companies--and you probably know from the history 
of Talisman in Sudan and other parts of Africa of the notorious 
Canadian human rights violation in the minefields.
    So, to me, it is essentially American companies. Unless 
they are scrutinized and fully listed in the New York Stock 
Exchange rather than being cross listed, then we will see more 
disclosures from Nevsun.
    Mr. Smith. Two final questions, and I will be brief because 
you have been very gracious with your time--how engaged has the 
United States been in implementing the boundary commission 
ruling of April 2002?
    Father, that was one of the points. I think you all are 
concerned about that. When you say the U.S. should reengage are 
you suggesting, Father, that we have not been engaged--it is 
been on the side somewhere and crowded out by other urgent 
matters or are we being robust in trying to get both parties 
together?
    And secondly, what can the United States in the 
international community do to help Eritrea matriculate from its 
abysmal human rights record? Are there new policies we need to 
be doing? The boundary commission, obviously, is one--getting 
that implemented.
    Mr. Ghebre-Ab. The United States. The United States.
    Mr. Smith. But we have a new President coming in January. 
This President still has a few months to do something. Are 
there any bold strokes that need to be done by him--by 
President Obama--and the next President? What would you say if 
he or she was----
    Mr. Ghebre-Ab. Yes. The United States played a critical 
role when Ethiopia and Eritrea went to war in 1998 to 2000, and 
in fact it was the guarantor for the settlement of the border 
dispute and for the ruling.
    Once the border commission ruled, the United States simply 
disengaged and many things can be said about that and we can 
assign many reasons for that and the Eritrean Government, 
perhaps legitimately, states to this day that the United States 
should have remained and should have fulfilled its position as 
a guarantor.
    Since then, the United States has not done much and as has 
been said by so many people before, one of the reasons that the 
Eritrean Government has forwarded for maintaining this 
continuous militarizing of the country was because of the 
threat that was posed by Ethiopia. Partially that is correct.
    But I think, as Dr. Beshir had pointed out, removing that 
as one of the things that the Eritrean regime uses for its 
hiding militarized policy will probably enable both countries 
to pursue fiscal relations in the future is what I believe.
    And, yes, on paper it has been settled but on the ground it 
has not and one of the things that Dr. Beshir said was on 95 
percent of the boundary there is really no dispute.
    On the remaining 5 percent, if the United States were to be 
engaged and making sure that this is settled I think it will go 
a long, long way to create the proper climate for de-escalating 
the conflict between Ethiopia and Eritrea.
    And I have also stated that both countries host armed 
opposition groups in their respective countries, which is one 
of the reasons for the continuous conflict between the two 
countries and one of my recommendations was that both countries 
cease to sponsor these armed opposition groups in order to 
destabilize each other.
    Mr. Beshir. I think there is opportunity now. After 
President Obama visited to Ethiopia a lot of things has 
changed. Following the events in Yemen, the drone program has 
moved to Ethiopia.
    As you may know, as of last January the Arba Minch base has 
been closed because of Ethiopia's human rights violations.
    So there is an opportunity perhaps for the U.S., as not a 
guarantor but a signatory of the Algiers Agreement. There could 
be an opportunity, a window in the short period this 
administration has, that they can exert pressure for the 
Ethiopian Government to least demarcate the undisputed area of 
the border, which is 95 percent.
    There are only three areas that are disputed. So, I mean, 
the Ethiopian ruling party has been very supportive, very 
sympathetic to the cause of the Eritreans since their 
independence but yet it has been mind boggling as why that 
didn't happen.
    I am told it is hardliners who want to keep the option. If 
you have an undemarcated border presumably the Port of Assab 
could be the Crimea of Ethiopia.
    They don't have to have a demarcated border to go to Assab 
and grab it and declare some kind of referendum. But more so of 
the hardliners, the Ethiopian opposition, which are also based 
in Asmara, is this anti-Eritrean view that they have.
    They still don't recognize Eritrea as an independent state. 
They still are against the Ethiopian Government precisely 
because of its approach or views toward Eritrea.
    So the border issue is very important to the Eritrean 
people, especially for those people who fought very hard for 
Eritrean independence, the anxiety, the fear of that Ethiopian 
ambition that always lags in the back of their mind that 
Ethiopia can any time grab Assab or reinvade Eritrea.
    So it is a real fear. It is not an imagined--all 
psychological fear. So Ethiopia does use it. The hardliners use 
this fear to maintain this ``no war, no peace.'' So I really 
urge the U.S. Government to push toward implementing the 
demarcation of the border.
    Saying that, a lot of people say Isaias uses the border 
issue to stay in power. I do not believe it because Isaias will 
always have a reason to stay in power, border demarcation or no 
border demarcation.
    Since 1990, when we called for reform and implementation of 
the Constitution, we were told we have to wait for the 
declaration of independence. After liberation, then we were 
told we have to wait to draft a Constitution. Then the border 
was broke.
    So I do not believe that that is what is keeping Isaias 
from implementing the rule of law or bringing reform because it 
simply is an excuse. If there is not a border issue there will 
be other excuses for him to stay in power.
    Ms. Bruton. I am glad to say that we are all on the same 
page with this in terms of the desperate need to do something 
about the Ethiopia-Eritrea border.
    I think the problem is that, as you well know, the United 
States is dependent upon Ethiopia for its peacekeeping, as we 
call it, contributions in Somalia and its peacekeeping 
contributions in South Sudan and its support of our drone 
facilities and that makes it very difficult for us to put any 
kind of influence on Ethiopia. I think it is unrealistic to 
expect us to change that.
    But my concern is that rhetorically we have not defended 
the border. When Ethiopia--and it admitted that it attacked 
Eritrea in July--the statement from the State Department was 
both sides need to behave themselves.
    And when Eritrea was bombed by Ethiopian forces last March, 
there was dead silence. Time and time again, in fact, we've 
been silent when our allies have transgressed against other 
countries.
    And what I feel afraid of is that Eritrea very justifiably 
believes that if Ethiopia attacks it, they are alone, and it is 
that perception that is leading them to be so paranoid about 
their defenses and that is something we can act on and I hope 
that we will.
    Mr. Beshir. Just a last comment. I mean, half of African 
countries have undemarcated borders, have border issues with 
each other. But they don't go to war. They don't suspend the 
Constitution. They go about their lives and while negotiating 
this border issue.
    So the border issue should not be an obstacle or a 
condition for the rule of law or implementation of their 
Constitution. To me, it is just an excuse for the President to 
stay in power and nothing else, nothing more.
    Mr. Smith. Is there anything any of you would like to add 
before we conclude?
    Ms. Bruton. I'd like to thank you for looking at this topic 
and I really hope you'll consider a congressional delegation 
and I hope you'll continue to give it your attention.
    Thank you.
    Mr. Smith. I appreciate that. Thank you all. We will 
continue our focus and a trip is certainly something we will 
very seriously consider.
    We do travel frequently--Greg and I and other members of 
the subcommittee--to Africa. Like I said, we were just in Juba.
    But I would also point out that when it comes to human 
rights I don't care what country it is and, again, as I said 
earlier, the Ethiopia Human Rights Act finally got passed.
    When we lost, the Republicans--the chairmanship--the 
majority, and Don Payne, my friend and colleague went from 
ranking to chairman again--we went back and forth a few times--
he took up the Ethiopian Human Rights Act--I was his chief co-
sponsor--and we did get it passed in the House but it did not 
get beyond that.
    Our resolution, it has many, many findings and, of course, 
I am talking about the Ethiopian resolution. When human rights 
are being committed, whether it be in Northern Ireland or 
anywhere else or in the United States we need to speak out and 
speak out with a clear, transparent, and bold voice so and that 
goes for Isaias. It goes for every other country in the world.
    So I thank you for your very, very important input. It is a 
roadmap for the future. We will try to do our level best to 
continue pressing.
    I hope the administration does. I hope the new 
administration, whoever it is, takes Eritrea in a better life 
for its citizens and a government that respects human rights 
and makes that a very serious foreign policy and that we 
reengage, as you pointed out, Father, on the boundary--as you 
all did in your comments.
    So I want to thank you so very much.
    Mr. Beshir. Thank you very much.
    Mr. Smith. The hearing is adjourned.
    [Whereupon, at 4:23 p.m., the subcommittee was adjourned.]

                                   

                            A P P E N D I X

                              ----------                              


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
